0          Smithsonian Institution 	
           Office of the Inspector General
                                                                                   Memo


  Date:    August 6, 2014

     To: 	 John W. Mccarter, Chair, Board of Regents

     Cc: 	 Robert P. Kogod, Chair, Audit and Review Committee, Board of Regents
           Porter N. Wilkinson, Chief of Staff to the Board of Regents
           Albert Horvath, Under Secretary for Finance and Administration/Chief
            Financial Officer 

           Patricia Bartlett, Chief of Staff to the Secretary 

           Judith Leonard, General Counsel 


  From:    C~~or General
Subject: 	 Audit of Travel Expenses of the Board of Regents for Fiscal Year 2013 (Audit
           Number A-14-04)

          In fiscal year 2013, 3 of the 17 Regents requested reimbursement for travel
          expenses for 22 trips totaling $31,664. Based on our audit of these
          expenses, we determined that travel reimbursements complied with
          applicable laws, regulations, policies, and procedures. In addition, we did not
          identify any trips for which the Smithsonian reimbursed the Regents for first­
          class air or rail fares, and all meals and miscellaneous expenses were within
          required limits. We also concluded that the Smithsonian policies and
          procedures governing Regents' travel reimbursements were adequate.

          We conducted this audit pursuant to 20 U.S.C. § 44, which allows each
          member of the Board of Regents (Board) to be paid necessary travel and
          other actual expenses to attend Board meetings and requires an audit of
          these expenses.

          Our objective was to determine whether the travel expenses for those
          Regents who seek reimbursement for expenses associated with attending
          Board meetings comply with laws, regulations, policies, and procedures. We
          also assessed the adequacy of the Smithsonian's policies and procedures
          governing travel expense reimbursements for the Board. (See attachment I
          for further information about our objectives, scope, and methodology, and
          attachment II for background information.)




          MRC524
          PO Box 37012
          Washington DC 20013-0712
          202.633.7050 Telephone
          202.633-7079   Fax
We provided a draft report to the Chief of Staff to the Board who concurred
with the report results and chose not to provide a written response.

Please call me or Joan Mockeridge, Acting Assistant Inspector General for
Audits, at 202.633. 7050 if you have any questions.

Major contributors to this report were Brian Lowe, Supervisory Auditor, and
Elsy Woodill, Auditor-in-Charge.


Attachments (2)




                                     2

Attachment I

                        SCOPE AND METHODOLOGY

To identify the Regents who were reimbursed for travel in fiscal year 2013,
we reviewed the Smithsonian's general ledger to compile a listing of all
reimbursements made for Regents' travel expenses. In addition we reviewed
the minutes of the Board of Regents and Committee meetings to verify that
Regent's attended the specific meeting for which reimbursement was paid.

We reviewed all of the Regents' travel reimbursement requests for the period
October 1, 2012, through September 30, 2013. During this period, 3 of the
17 Regents requested reimbursement for travel expenses for 22 trips totaling
$31,664. We verified the accuracy of the claims for reimbursement and
confirmed that all claims were properly reviewed, approved, and paid in
accordance with the Regent's policy.

To evaluate the Smithsonian's procedures for reimbursement of Regents'
travel expenses, we reviewed the Board of Regents Charter and Bylaws and
the Office of the Regents' Reimbursement of Regents Meeting Expenses
Policy (January 2011). We also reviewed the Federal Travel Regulations to
identify applicable per diem rates.

We conducted this audit in Washington, D.C., from April 2014 through
August 2014, in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the
evidence we obtained provides a reasonable basis for our conclusions based
on our audit objectives.




                                      3

Attachment II

                               BACKGROUND

Regents generally attend four Board meetings a year, committee meetings,
and occasional special events. Regents who live outside the Washington, D.C.
area may travel to attend meetings and events. In most cases, these
Regents initially pay for the travel and then seek reimbursement from the
Smithsonian for their lodging, transportation, meals, and related expenses.

The Smithsonian Regent's travel policy establishes reimbursement limits for
travel. The policy limits the Regents' reimbursements for transportation to
coach air- or train-fare or actual expenses, whichever is less. The
Smithsonian also reimburses the Regents up to $20 or $75 for ground
transportation to or from Ronald Reagan National Airport, or Dulles
International Airport, respectively. In addition, meals are reimbursed at the
actual cost or the government per diem rate, whichever is less.

Regent's Travel Reimbursement Process

At the beginning of each fiscal year, the Office of the Regents creates
purchase orders for each Regent expected to request reimbursement for
travel. After completing travel, the Regent submits travel reimbursement
requests and supporting documentation to the Smithsonian's Office of the
Regents.

In fiscal year 2013, the administrative assistant within the Office of the
Regents reviewed the reimbursement requests to determine if the costs are
accurate, supported by documentation, and allowable. Then, the acting
program officer in the Office of the Regents reviewed and approved the
requests and submitted a summary memorandum to the Accounts Payable
Division in the Office of Finance and Accounting for payment. The summary
memo states what meeting the Regent attended and describes the charges
including approved amounts.

The Accounts Payable staff reviews the summary memo and inputs the
approved amounts into the Smithsonian's accounting system, and the system
creates a voucher. The accounting system then generates the payment to the
Regent by an electronic fund transfer.




                                      4

